                   DEP -\RTi\lE1\T OF H tALTH A...ND HlTlVLAl'\T SERVICES'


               ()FFICE <)F INSPE CT{)R GENE.RAL



                                                        JUN 21 20ll
TO:            Farzad Mostashari, M.D., Sc.M.
               National Coordinator for Health Information Technology
               Office of the National Coordinator
                for Health Information Technology

               Marilyn Tavenner
               Acting Administrator
               Centers for Medicare & Medicaid Services

                      /S/
FROM:          Stuart Wright
               Deputy Inspector General
                 for Evaluation and Inspections


SUBJECT: Memorandum Report: Use ofElectronic Health Record Systems in 2011
Among Medicare Physicians Providing Evaluation and Management Services,
OEI -04-10-00184

This memorandum report responds to a request from officials of the Office of the
National Coordinator for Health Information Technology (ONC), who expressed interest
in information about physicians' reported use of electronic health record (EHR) systems.
ONC officials made this request in connection with an ongoing evaluation on the extent
of documentation vulnerabilities of evaluation and management (ElM) services using
EHR systems (OEI-04-10-00182), which will be issued separately. ONC officials also
wanted to know how many and which EHR systems were being used and whether the
Medicare physicians in our study were using certified EHR systems to document ElM
services. We are also sending this report to the Centers for Medicare & Medicaid
Services (CMS), which may find this information helpful as it continues administering its
EHR incentive program.

SUMMARY

We found that 57 percent of Medicare physicians used an EHR system at their primary
practice location in 2011. Overall, 95 percent of physicians who used an EHR system to
document EIl\1 services first began using it between 2001 and 2011. Ofthese physicians,
the largest percentage (22 percent) began using EHR systems in 2011, the year that eMS
commenced its incentive program. Additionally, three of every four Medicare physicians
with an EHR system used a certified system to document ElM services. Finally, although
Page 2 – Farzad Mostashari, M.D., Sc.M.; Marilyn Tavenner


many EHR systems can assist physicians in assigning codes for E/M services, we found
that most Medicare physicians manually assigned E/M codes.

BACKGROUND

Meaningful Use of Certified EHR Technology
The HITECH Act of 2009 established the goal of achieving meaningful use of EHR
technology in Medicare.1, 2 Meaningful use means that Medicare physicians use certified
EHR technology in ways (e.g., electronic prescribing) that can be measured to improve
the quality of health care for patients and adhere to the standards and criteria of the EHR
incentive program.3, 4 Starting in 2015, physicians will be subject to Medicare payment
reductions if they do not demonstrate meaningful use of certified EHR systems.5

An EHR system is a computerized recordkeeping approach that allows physicians to
record patient information electronically instead of using paper records.6 ONC is
responsible for coordinating nationwide efforts to use health information technology,
such as certified EHR systems, and for the electronic exchange of health information.7

ONC has promulgated regulations pertaining to the initial set of standards and
certification criteria and to the temporary and permanent certification programs.8 For
instance, ONC’s rules contain security provisions, such as requiring that an EHR system
be capable of maintaining audit logs, have automatic logoff, have access control, and
permit emergency access.9 Additionally, ONC has coordinated with CMS to promulgate



1
  Title XIII of the American Recovery and Reinvestment Act of 2009, P.L. 111-5. See also, Department of 

Health and Human Services (HHS) News Release, Accelerating Electronic Health Records Adoption and 

Meaningful Use, August 2010.

2
  EHR technology includes both certified EHR systems and add-on modules.

3
  Social Security Act (SSA) § 1848(o)(2). CMS issued regulation that defines “meaningful use” for its EHR 

incentive program. CMS, EHR Incentive Program Regulations and Notices, May 2012. 

4
  To participate in the EHR incentive program, Medicare physicians must attest that their certified EHR system is 

secure, can maintain data confidentiality, can work with other EHR systems to share information, and can 

perform a set of well-defined functions. ONC, Standards & Certification Criteria Final Rule, March 2011. 

5
  SSA § 1848(a)(7). Regardless of whether physicians participate in the Medicare EHR incentive program, they

will be subject to Medicare payment reductions beginning in 2015 if they do not demonstrate meaningful use of 

certified EHR systems. See also CMS, Medicare and Medicaid EHR Incentive Program Basics, October 2011. 

6
  EHRs can include information about patient demographics, progress notes, medications, medical history, and 

clinical test results from any health care encounter. CMS, Electronic Health Records Overview, October 2011. 

7
  Public Health Service Act § 3001, as enacted in the HITECH Act. See also ONC, About ONC, October 2011. 

Accessed at http://healthit.hhs.gov/portal/server.pt/community/healthit_hhs_gov__onc/1200 on February 7, 2012. 

8
  See ONC’s initial set of standards and certification criteria at 75 Fed. Reg. 44590 (July 28, 2010). ONC 

promulgated the rules for its Temporary Certification Program and its Permanent Certification Program at, 

respectively, 75 Fed. Reg. 36158 (June 24, 2010) and 76 Fed. Reg. 1262 (Jan. 7, 2011). 

9
  45 CFR §§ 170.302(o)-(r). 



Use of EHR Systems in 2011 Among Medicare Physicians Providing E/M Services                   OEI-04-10-00184
Page 3 – Farzad Mostashari, M.D., Sc.M.; Marilyn Tavenner


the meaningful use criteria for the first stage of the EHR incentive program.10

Physicians must demonstrate the meaningful use of certified EHR systems to avoid
payment reductions beginning in 2015.11 EHR systems are certified by an Authorized
Testing and Certification Body (ONC-ACTB) according to certification processes
defined by ONC.12, 13 As of March 2012, approximately 1,200 EHR products were
certified by ONC-ACTB. Certification criteria require that EHR systems have the
necessary technological capability, functionality, and security to meet the applicable
meaningful use criteria. These criteria can include the capability to maintain active
medication allergy lists and provide clinical summaries for patients for each office visit,
as defined in CMS regulation.14 However, companies (i.e., vendors) that develop and
market EHR systems can include additional capabilities that are not required for the
purposes of certification.

In 2011, CMS began a three-stage, 5-year EHR incentive program with objectives that
physicians must meet to demonstrate their meaningful use of certified EHR technology.15
Each stage requires increasing use of EHR technology and electronic information
exchange. For Stage 1, physicians must meet 15 core objectives (e.g., maintain active
medication list) and 5 of 10 menu objectives (e.g., submit electronic data to immunization
registries) to receive an EHR incentive payment.16 In March 2012, CMS issued a notice
of proposed rulemaking to delineate the Stage 2 meaningful use requirements for certified
EHR technology. Stage 3 meaningful use requirements are expected to be proposed in
early 2014.

E/M Services
Physicians and nonphysician practitioners can use EHR systems to document E/M
services, which are visits to assess and manage a patient’s health. Hereinafter, we refer to
physicians and nonphysician practitioners as physicians.17 In 2010, approximately
65 percent of all Medicare physicians billed for E/M services, accounting for
$33.5 billion of $110 billion (30 percent) in total payments for Medicare Part B goods


10
   See CMS’s meaningful use regulations at 75 Fed. Reg. 44314 (July 28, 2010). 

11
   Social Security Act § 1848(a)(7). 

12
   See 75 Fed. Reg. 36158 (June 24, 2010) and 76 Fed. Reg. 1262 (Jan. 7, 2011). 

13
   ONC selected six organizations as ATCBs. ONC, ONC-Authorized Testing and Certification Bodies, March 

2012. 

14
   45 CFR §§ 170.302, 170.304, and 170.306. 

15
   See 75 Fed. Reg. 44314 (July 28, 2010). Starting in 2011, physicians can receive up to $44,000 over 5 years 

under the Medicare EHR incentive program. See 75 Fed. Reg. 44314, 44551 (July 28, 2010). See also CMS, 

EHR Incentive Programs: Overview, April 2011.

16
   42 CFR § 495.6. 

17
   Nonphysician practitioners are health care providers (i.e., nurse practitioners, clinical nurse specialists, and 

physician assistants) who practice either in collaboration with or under the supervision of a physician. 



Use of EHR Systems in 2011 Among Medicare Physicians Providing E/M Services                       OEI-04-10-00184
Page 4 – Farzad Mostashari, M.D., Sc.M.; Marilyn Tavenner


and services.18, 19 E/M services also represented 45 percent of the top 20 procedure codes
billed to Medicare in 2010.20

E/M services are grouped into visit types. Each visit type reflects the type of service, the
place of service, and the patient’s status. For example, there are two types of office visits
(new patient and established patient). Similarly, there are two types of hospital visits
(initial and subsequent).

Most E/M services are billed using codes that reflect the complexity of the service,
ranging from lower level (i.e., less complex and less expensive) to higher level (i.e., more
complex and more expensive) codes.21 Within each visit type, Medicare payment for the
E/M service depends on the complexity of the visit.

EHR Systems and E/M Coding
Numerous EHR systems with various capabilities and features are available for purchase
from vendors. For example, some EHR systems have add-on modules that automatically
assign E/M codes based on the information provided by the physician.22 However, ONC
has not established standards for how physicians should use EHR systems to create
medical records that meet CMS documentation requirements for E/M services.23, 24

Vendors can market these additional capabilities to physicians as tools to enhance E/M
coding accuracy and efficiency, as well as to ensure that the highest E/M code is used to
optimize revenue.25 Depending on the vendor, add-on modules may include broader
applications of the coding software, such as generating diagnosis and complexity levels
associated with an E/M code. Other modules can also provide feedback to describe how
the code was derived.



18
   Office of Inspector General (OIG) analysis of 2010 National Claims History (NCH) File and 2010 Part B 

Analytic Reports (PBAR) National Procedure Summary File. 

19
   Medicare payment refers to total Medicare-allowed amounts, which are 100 percent of the payment made to a 

physician by both Medicare and the beneficiary. Medicare pays 80 percent of allowed charges and the 

beneficiary is responsible for paying the remaining 20 percent. 

20
   OIG analysis of 2010 PBAR National Procedure Summary File. 

21
   American Medical Association (AMA), Current Procedural Terminology, 2010.
22
   American Health Information Management Association (AHIMA), Automated Coding Software:
Development and Use To Enhance Anti-Fraud Activities (HHSP23320054100EC), July 2005.
23
   Per CMS policy, physicians must use either the 1995 or 1997 Document Guidelines for Evaluation and
Management Services to document the medical record with the appropriate clinical information to support the
E/M code billed. CMS, Evaluation and Management Services Guide 2010, December 2010. 

24
   AMA’s comments on ONC’s proposed rule, Health Information Technology: Standards, Implementation

Specifications, and Certification Criteria for Electronic Health Record Technology, 2014 Edition, May 2012. 

25
   AHIMA, Automated Coding Software: Development and Use To Enhance Anti-Fraud Activities

(HHSP23320054100EC), July 2005. 



Use of EHR Systems in 2011 Among Medicare Physicians Providing E/M Services                OEI-04-10-00184
Page 5 – Farzad Mostashari, M.D., Sc.M.; Marilyn Tavenner


Related Work
This evaluation is part of a series of studies by OIG on E/M services. OIG previously
examined the coding trends of E/M services from 2001 to 2010 and identified physicians
who consistently billed higher level (i.e., more complex and more expensive) codes in
2010.26 Subsequent evaluations will determine the appropriateness of Medicare
payments for E/M services and the extent of documentation vulnerabilities of E/M
services using EHR systems.

The Centers for Disease Control and Prevention (CDC) provides an annual report that
describes trends in the use of EHR systems and physicians’ intentions to apply for EHR
incentive payments. This report is based on a survey of office-based physicians who
provide direct care to patients.27 In 2011, CDC found that 57 percent of office-based
physicians reported using an EHR system at their practice location. CDC also found that
34 percent of these physicians had an EHR system that met some of the meaningful use
requirements. Additionally, 52 percent of office-based physicians reported their intention
to apply for EHR incentive payments in 2011.

METHODOLOGY

Scope
This memorandum report describes the extent to which Medicare physicians used EHR
and certified EHR systems to document E/M services through 2011. Using claims data
from a companion study on E/M services, we selected a simple random sample of
2,000 Medicare physicians from a population of 441,990 physicians who provided at
least 100 E/M services in 2010.28

Data Collection and Analysis
We conducted an electronic survey on our simple random sample of 2,000 Medicare
physicians. We received responses from 1,506, for a 75-percent response rate. We
conducted our survey between October 2011 and January 2012.




26
   OIG, Coding Trends of Medicare Evaluation and Management Services, OEI-04-10-00180, April 2012.
27
   CDC, Electronic Health Record Systems and Intent to Apply for Meaningful Use Incentives Among Office-
Based Physician Practices: United States, 2001–2011, November 2011. CDC defined office-based physicians
as nonfederally employed physicians located in the 50 States and the District of Columbia, excluding
radiologists, anesthesiologists, and pathologists.
28
   OIG, Coding Trends of Medicare Evaluation and Management Services, OEI-04-10-00180, April 2012. We
used the National Provider Identifier (NPI) field from the NCH carrier file to determine the number of
physicians. We did not verify whether those NPIs were valid. Claims submitted by physicians who provided
fewer than 100 E/M services represented less than 2 percent of Medicare payments and 30 percent of all
physicians who provided E/M services.


Use of EHR Systems in 2011 Among Medicare Physicians Providing E/M Services             OEI-04-10-00184
Page 6 – Farzad Mostashari, M.D., Sc.M.; Marilyn Tavenner


We collected descriptive information about physicians’ use of EHR systems for
documenting E/M services. We asked Medicare physicians whether they currently used
an EHR system at their primary practice locations.29 We defined “use” as having an EHR
system that was purchased, installed, tested, and being utilized at the physician’s primary
practice location.30 If physicians reported using EHR systems, we asked whether they
used EHR systems to document E/M services.31

We also asked Medicare physicians who currently used EHR systems to document E/M
services to name the year they first started using this technology. We also asked these
physicians how often they used EHR systems to document E/M services and whether
E/M codes are manually assigned by the physician or staff. Additionally, we asked
Medicare physicians which EHR system they used to document E/M services and
whether their EHR system was certified. We then used ONC’s list of certified EHR
technology to determine whether each physician’s EHR system was certified by an
ONC-ACTB. 32

All estimates in this report are projected to the specified population or subpopulation of
Medicare physicians who provided E/M services in 2010, at the 95-percent confidence
level. Appendix A shows the sample size, point estimates, and 95-percent confidence
intervals for all statistics in this report.

Limitations
This study relies on self-reported data from Medicare physicians. We did not request
documentation to verify their responses.

Standards
This study was conducted in accordance with the Quality Standards for Inspection and
Evaluation approved by the Council of the Inspectors General on Integrity and
Efficiency.




29
   We defined an EHR in our survey as an electronic health record of patient health information generated by one
or more encounters to streamline the workflow in care-delivery organizations.
30
   We did not consider billing software as an EHR system. We excluded responses from 34 Medicare physicians
because they reported using billing software instead of an EHR system.
31
   Seventy-five respondents indicated that either they do not use or do not know whether they use an EHR
system to document E/M services. We excluded responses from eight Medicare physicians because later in our
survey, they indicated not using EHR systems to document E/M services. We also excluded responses from two
Medicare physicians because they indicated first using an EHR system to document E/M services in 2012.
32
   ONC, Certified HIT Product List, December 2010. Accessed at http://oncchpl.force.com/ehrcert?q=CHPL on
June 14, 2012.


Use of EHR Systems in 2011 Among Medicare Physicians Providing E/M Services                  OEI-04-10-00184
Page 7 – Farzad Mostashari, M.D., Sc.M.; Marilyn Tavenner


RESULTS

Fifty-Seven Percent of Medicare Physicians Used EHR Systems at Their Primary
Practice Locations in 2011
Of the physicians who had an EHR system, 90 percent used their systems to document
E/M services. See Table A-1 in Appendix A for the percentage of physicians who used
an EHR system.

Overall, 95 percent of physicians who used an EHR system in 2011 to document E/M
services first began using an EHR system between 2001 and 2011, as shown in Table 1.
During that time, the largest percentage of physicians (22 percent) began using EHR
systems in 2011, the year that CMS commenced its EHR incentive program.33 See Table
A-2 in Appendix A for the percentage of physicians who first used EHR systems to
document E/M services each year from 1981 to 2011.

Table 1: Medicare Physicians Who First Used an EHR System to Document E/M Services
From 2001 to 2011

                                                                Percentage of
                                        Year
                                                                  Physicians

                                        2001                             0.53%
                                        2002                             0.80%
                                        2003                             2.26%
                                        2004                             5.59%
                                        2005                             8.51%
                                        2006                             7.85%
                                        2007                             8.91%
                                        2008                            10.64%
                                        2009                            12.10%
                                        2010                            15.82%
                                        2011                            22.47%
                                          Total                         95.48%
                                       Source: OIG analysis of EHR survey data,
                                       2012.



Approximately 72 percent of Medicare physicians who used an EHR system to document
E/M services always used it to document E/M services. The remaining 28 percent used
their EHR systems to document E/M services some of the time. Specifically, 16 percent
of Medicare physicians used their EHR systems to document E/M services more than



33
  This percentage of physicians in 2011 was statistically higher than all other percentages for the years listed in
Table 1 at the 95-percent confidence level.


Use of EHR Systems in 2011 Among Medicare Physicians Providing E/M Services                      OEI-04-10-00184
Page 8 – Farzad Mostashari, M.D., Sc.M.; Marilyn Tavenner


75 percent but less than 100 percent of the time, 8 percent from 50 to 75 percent of the
time, and 4 percent less than 50 percent of the time.

Although EHR systems can automatically assign codes for E/M services, 88 percent of
Medicare physicians assigned codes manually in 2011. The remaining 12 percent had
codes assigned manually by staff (e.g., professional coders).

Three of Every Four Medicare Physicians With an EHR System Used Certified
EHR Technology To Document E/M Services
Of the Medicare physicians who used EHR systems at their primary practice locations,
73 percent used a certified EHR system to document E/M services in 2011. Overall,
physicians used more than 135 different EHR systems from more than 110 vendors. See
Table A-3 in Appendix A for the percentage of Medicare physicians who used specific
EHR systems by vendor. Sixty percent of Medicare physicians used a certified EHR
system from one of nine vendors (see Table 2). See Table A-4 in Appendix A for the
percentage of Medicare physicians who used certified EHR systems by the nine vendors
listed in Table 2.

Table 2: Nine Vendors of Certified EHR Systems Used By Most Medicare Physicians to
Document E/M Services in 2011

                                                                   Percentage of
                 Vendor                                              Physicians


                 Allscripts                                              10.90%

                 eClinicalWorks, LLC.                                     9.04%

                 GE Healthcare                                            8.64%

                 NextGen Healthcare                                       8.24%

                 Epic Systems Corporation                                 7.45%

                 Greenway Medical Technologies, Inc.                      5.19%

                 Cerner Corporation                                       3.99%

                 McKesson Corporation                                     3.72%

                 Sage                                                     3.06%

                   Total*                                                60.24%
                *Total exceeds column sum because of rounding.
                Source: OIG analysis of EHR survey data, 2012.




Use of EHR Systems in 2011 Among Medicare Physicians Providing E/M Services        OEI-04-10-00184
Page 9 – Farzad Mostashari, M.D., Sc.M.; Marilyn Tavenner


CONCLUSION

ONC officials expressed interest in additional information about physicians’ use of EHR
systems. They also wanted to know how many and which EHR systems were being used
and whether the Medicare physicians in our study were using certified EHR systems to
document E/M services. We provide this memorandum report to inform ONC about the
use of both certified and noncertified EHR systems in 2011 among Medicare physicians
who provided E/M services in 2010. Our results are consistent with CDC’s 2011 annual
report on the use of EHR technology among office-based physicians.

Additionally, CMS may find this information helpful as it continues administering its
EHR incentive program. The use of EHR systems among Medicare physicians will likely
continue to rise as more physicians participate in CMS’s EHR incentive program. Also,
physicians will likely continue to adopt and implement certified EHR technology to avoid
Medicare payment reductions starting in 2015. Information in this report can also
provide CMS with insights regarding its EHR incentive program.

This report is being issued directly in final form because it contains no recommendations.
If you have comments or questions about this report, please provide them within 60 days.
Please refer to report number OEI-04-10-00184 in all correspondence.




Use of EHR Systems in 2011 Among Medicare Physicians Providing E/M Services   OEI-04-10-00184
Page 10 – Farzad Mostashari, M.D., Sc.M.; Marilyn Tavenner


Appendix A


     Table A-1: Sample Sizes, Point Estimates, and Confidence Intervals for Medicare
     Physicians Who Used an Electronic Health Record System in 2011

                                                                    Sample            Point    95-Percent Confidence
     Estimate Description
                                                                      Size         Estimate                  Interval

     Medicare physicians using an electronic health
     record (EHR) system at their primary practice                     1,472        56.73%              54.18%–59.24%
     locations
     Medicare physicians using an EHR system to
     document evaluation and management (E/M)                            835        90.06%              87.83%–91.92%
     services
     Medicare physicians using an EHR system to
     document E/M services who first began using an                      752        95.48%              93.73%–96.75%
     EHR system between 2001 and 2011
     Medicare physicians using an EHR system to
                                                                         752        71.68%              68.34%–74.79%
     document E/M services 100 percent of the time
     Medicare physicians using an EHR system to
     document E/M services more than 75 but less                         752        15.96%              13.51%–18.76%
     than 100 percent of the time
     Medicare physicians using an EHR system to
     document E/M services from 50 to 75 percent of                      752         8.24%               6.48%–10.44%
     the time
     Medicare physicians using an EHR system to
     document E/M services less than 50 percent of                       752         4.12%                 2.91%–5.81%
     the time
     Medicare physicians manually assigning E/M
                                                                         752        87.77%              85.22%–89.93%
     codes
     Medicare physicians whose staff manually
                                                                         752        12.23%              10.07%–14.78%
     assign E/M codes
     Medicare physicians using a certified EHR
                                                                         752        73.01%              69.71%–76.07%
     system at primary practice location
     Medicare physicians using a certified EHR
                                                                         752        60.24%              56.70%–63.67%
     system from one of nine vendors*
     *The nine vendors were Allscripts, eClinicalWorks, LLC., GE Healthcare, Epic Systems Corporation, Greenway Medical
     Technologies, Inc., Cerner Corporation, McKesson Corporation, and Sage.
    Source: Office of Inspector General (OIG) analysis of EHR survey data, 2012.




Use of EHR Systems in 2011 Among Medicare Physicians Providing E/M Services                                 OEI-04-10-00184
Page 11 – Farzad Mostashari, M.D., Sc.M.; Marilyn Tavenner


Appendix A

               Table A-2: Point Estimates and Confidence Intervals of Medicare
               Physicians Who First Used an EHR System to Document E/M
               Services From 1981 to 2011 (n=752)

               Year                       Point Estimate       95-Percent Confidence Interval


               1981                                 0.13%                       0.02%–0.94%

               1990                                 0.13%                       0.02%–0.94%

               1991                                 0.13%                       0.02%–0.94%

               1994                                 0.40%                       0.13%–1.23%

               1995                                 0.40%                       0.13%–1.23%

               1996                                 0.13%                       0.02%–0.94%

               1997                                 0.53%                      0. 20%–1.41%

               1998                                 1.20%                       0.62%–2.29%

               1999                                 0.27%                       0.07%–1.06%

               2000                                 1.20%                      0. 62%–2.29%

               2001                                 0.53%                       0.20%–1.41%

               2002                                 0.80%                       0.36%–1.77%

               2003                                 2.26%                       1.40%–3.61%

               2004                                 5.59%                       4.15%–7.48%

               2005                                 8.51%                      6.71%–10.73%

               2006                                 7.85%                      6.12%–10.00%

               2007                                 8.91%                      7.07%–11.17%

               2008                               10.64%                       8.62%–13.06%

               2009                               12.10%                       9.95%–14.64%

               2010                               15.82%                     13.38%–18.62%

               2011                               22.47%                     19.62%–25.60%

                  Total                          100.00%                                   --

              Source: OIG analysis of EHR survey data, 2012.




Use of EHR Systems in 2011 Among Medicare Physicians Providing E/M Services                 OEI-04-10-00184
Page 12 – Farzad Mostashari, M.D., Sc.M.; Marilyn Tavenner


Appendix A

       Table A-3: Point Estimates and Confidence Intervals for Medicare Physicians Who
       Used an EHR System by Vendor* (n=752)

                                                                                   Point                 95-Percent
       Vendor                                                 EHR System
                                                                                Estimate         Confidence Interval

       Acura Medical Solutions,
                                                             mMD.Net EHR            0.13%              0.02%–0.94%
       Inc.

       Advanced Data Systems                           MedicsDocAssistant           0.40%              0.13%–1.23%

       Advanced Health                     Advanced Health Management
                                                                                    0.13%              0.02%–0.94%
       Management Systems                                 Systems EHR

       Advanced MD                                      Advanced MD EHR             0.27%              0.07%–1.05%

       Allmeds, Inc.                                          Allmeds EMR           0.66%              0.28%–1.59%

       Allscripts                                      Allscripts Enterprise        0.53%              0.20%–1.41%

       Allscripts                                         Allscripts MyWay          0.80%              0.36%–1.76%

       Allscripts                                      Allscripts PayerPath         0.13%              0.02%–0.94%

       Allscripts                                    Allscripts Professional        1.46%              0.81%–2.62%

       Allscripts                                            Allscripts Tiger       0.13%              0.02%–0.94%

       Allscripts                                           Did Not Specify         5.32%              3.93%–7.17%

       Allscripts                                                MediNotes          0.53%              0.20%–1.41%

       Allscripts                                 Sunrise Ambulatory Care           0.13%              0.02%–0.94%

                                         Sunrise Ambulatory Care Module
       Allscripts                                                                   0.13%              0.02%–0.94%
                                                                    Set

       Allscripts                                 Sunrise Clinical Manager          0.27%              0.07%–1.05%

       Allscripts                                              TouchWorks           1.46%              0.81%–2.62%

       Allscripts-Misys Healthcare
                                                     MISYS Allscripts EHR           1.20%              0.62%–2.28%
       Solutions, Inc.
       Altapoint Data Systems,
                                                             Altapoint EHR          0.40%              0.13%–1.23%
       LLC

       Altos Solutions, Inc.                                     OncoEMR            0.13%              0.02%–0.94%

       AmazingCharts.com, Inc.                             Amazing Charts           2.26%              1.41%–3.60%

       American Medical Software         American Medical Software EMR              0.13%              0.02%–0.94%

       Antek HealthWare, LLC                                   Alteer Office        0.80%              0.36%–1.76%

       *Vendors use the terms EHR and electronic medical record (EMR) systems interchangeably.
                                                                                                 continued on next page




Use of EHR Systems in 2011 Among Medicare Physicians Providing E/M Services                                OEI-04-10-00184
Page 13 – Farzad Mostashari, M.D., Sc.M.; Marilyn Tavenner


Appendix A


      Table A-3: Point Estimates and Confidence Intervals for Medicare Physicians Who Used
      an EHR System by Vendor * (n=752) (Continued)

                                                                            Point           95-Percent
      Vendor                                              EHR System
                                                                         Estimate   Confidence Interval

      Aprima Medical Software,
                                                          Aprima EHR       0.80%          0.36%–1.76%
      Inc.
                                       ASP.MD Medical Office System
      ASP.MD, Inc.                                                         0.13%          0.02%–0.94%
                                                            (AMOS)

      Bizmatics, Inc.                                 PrognoCIS EMR        0.27%          0.07%–1.05%

      Cerner Corporation                           Cerner PowerChart       3.59%          2.48%–5.18%

      Cerner Corporation                          Cerner PowerWorks        0.40%          0.13%–1.23%

      ClearPractice                                      ClearPractice     0.13%          0.02%–0.94%

      Community Computer
                                                              MEDENT       2.13%          1.31%–3.44%
      Service, Inc.
      Compulink Business
                                                            Compulink      0.13%          0.02%–0.94%
      Systems

      Comtron, Inc.                                      Medgen EHR        0.27%          0.07%–1.05%

      Covemed Systems, Inc.                             Covemed EMR        0.13%          0.02%–0.94%

     Data Tec, Inc.                                      PowersoftMD       0.27%          0.07%–1.05%

     Datanational                                      eConnect Portal     0.27%          0.07%–1.05%

     DOX Podiatry                                   DOX Podiatry EHR       0.13%          0.02%–0.94%

     eCast Corporation                                     eCast EMR       0.27%          0.07%–1.05%

     eClinicalWorks, LLC                                eClinicalWorks     9.04%         7.19%–11.31%

     EDIMS, LLC                                                 EDIMS      0.13%          0.02%–0.94%

     EHR Scope, LLC                                   CareSeries EHR       0.40%          0.13%–1.23%

     Elekta-IMPAC Medical
                                                                Mosaiq     0.66%          0.28%–1.59%
     Systems, Inc.

     e-MDs, Inc.                                e-MDs Solution Series      0.27%          0.07%–1.05%

     Emergisoft Corporation                            Emergisoft EHR      0.13%          0.02%–0.94%

     Encite, Inc.                                          Encite EHR      0.13%          0.02%–0.94%

      *Vendors use the terms EHR and EMR systems interchangeably.
                                                                                    continued on next page




Use of EHR Systems in 2011 Among Medicare Physicians Providing E/M Services                 OEI-04-10-00184
Page 14 – Farzad Mostashari, M.D., Sc.M.; Marilyn Tavenner


Appendix A


      Table A-3: Point Estimates and Confidence Intervals for Medicare Physicians Who Used
      an EHR System by Vendor * (n=752) (Continued)

                                                                              Point           95-Percent
      Vendor                                             EHR System
                                                                           Estimate   Confidence Interval


      Epic Systems Corporation                               Epic Care       0.40%          0.13%–1.23%

      Epic Systems Corporation             Epic Care Ambulatory EMR          6.91%          5.31%–8.96%

      Epic Systems Corporation                                Excellian      0.13%          0.02%–0.94%

      Falcon, LLC                                          Falcon EHR        0.27%          0.07%–1.05%

      First Insight Corporation                       MaximEyes SQL          0.13%          0.02%–0.94%

      Forerun, Inc.                                       Forerun EHR        0.13%          0.02%–0.94%

      Gateway EDI                                         Gateway EDI        0.13%          0.02%–0.94%

      GE Healthcare                                     Centricity EMR       6.38%          4.85%–8.37%

      GE Healthcare                        Centricity Practice Solution      1.86%          1.11%–3.12%

      GE Healthcare                                                  IDX     0.27%          0.07%–1.05%

      GE Healthcare                                      Logician EMR        0.13%          0.02%–0.94%

      GEMMS                                              GEMMS One           0.93%          0.44%–1.94%

      Glenwood Systems, LLC                                 GlaceEMR         0.27%          0.07%–1.05%

      gMed                                               gGastro EMR         0.13%          0.02%–0.94%

      Greenway Medical
                                                     PrimeSUITE EHR          5.19%          3.81%–7.02%
      Technologies, Inc.
      Health Innovation
                                                       Revolution EHR        0.27%          0.07%–1.05%
      Technologies, Inc.

      Health IT Services Group                           Acumen EHR          0.66%          0.28%–1.59%

      Healthcare Management
                                                HMS Ambulatory EHR           0.27%          0.07%–1.05%
      Systems, Inc.

      HealthFusion                                          MediTouch        0.27%          0.07%–1.05%

      Healthland                                      Healthland EMR         0.13%          0.02%–0.94%

      Holt Systems                                           eMedRec         0.27%          0.07%–1.05%

      * Vendors use the terms EHR and EMR systems interchangeably.
                                                                                      continued on next page




Use of EHR Systems in 2011 Among Medicare Physicians Providing E/M Services                   OEI-04-10-00184
Page 15 – Farzad Mostashari, M.D., Sc.M.; Marilyn Tavenner


Appendix A


     Table A-3: Point Estimates and Confidence Intervals for Medicare Physicians Who Used
     an EHR System by Vendor * (n=752) (Continued)

                                                                             Point           95-Percent
     Vendor                                              EHR System
                                                                          Estimate   Confidence Interval


     iMedCORE                                        iMedCORE EMR           0.13%          0.02%–0.94%

     Infinite Software Solutions,
                                                           MD-Reports       0.13%          0.02%–0.94%
     Inc.
     Infor-Med Medical
                                                           Praxis EMR       0.53%          0.20%–1.41%
     Information Systems, Inc.

     InteGreat, Inc.                                          IC-Chart      1.33%          0.72%–2.45%

     Intelligent Medical
                                          IMO Diagnosis Code Check          0.13%          0.02%–0.94%
     Objects, Inc.
     Internally Developed
                                         Internally Developed System        1.20%          0.62%–2.28%
     System
     Intuitive Medical Software,
                                                         Urochart EHR       0.13%          0.02%–0.94%
     LLC

     iSALUS Healthcare                                      OfficeEMR       0.27%          0.07%–1.05%

     ISM, Inc.                                                OmniMD        0.13%          0.02%–0.94%

     iton                                         MedicsDocAssistant        0.40%          0.13%–1.23%

     Kaiser Computers, Inc.                             Drs Enterprise      0.13%          0.02%–0.94%
                                               Medical and Practice
     Lake Superior Software,
                                           Management (MPM) Suite           0.27%          0.07%–1.05%
     Inc.
                                                            MAGIC
     Liquid Medical Office, Inc.                           Liquid EMR       0.13%          0.02%–0.94%

     LSS Data Systems                                               LSS     0.27%          0.07%–1.05%

     MacPractice, Inc.                                MacPractice MD        0.13%          0.02%–0.94%

     McKesson Corporation                    Horizon Ambulatory Care        0.66%          0.28%–1.59%

     McKesson Corporation                             Horizon Clinicals     0.27%          0.07%–1.05%

     McKesson Corporation                              iKnowmed EHR         0.80%          0.36%–1.76%

     McKesson Corporation                             Medisoft Clinical     0.40%          0.13%–1.23%

     McKesson Corporation            Practice Partner Patient Records       1.46%          0.81%–2.62%

     McKesson Corporation                              Did Not Specify      0.13%          0.02%–0.94%

     * Vendors use the terms EHR and EMR systems interchangeably.
                                                                                     continued on next page




Use of EHR Systems in 2011 Among Medicare Physicians Providing E/M Services                  OEI-04-10-00184
Page 16 – Farzad Mostashari, M.D., Sc.M.; Marilyn Tavenner


Appendix A


     Table A-3: Point Estimates and Confidence Intervals for Medicare Physicians Who Used
     an EHR System by Vendor * (n=752) (Continued)

                                                                             Point           95-Percent
     Vendor                                               EHR System
                                                                          Estimate   Confidence Interval


     MD Productivity, Inc.                                  MD Dictate      0.13%          0.02%–0.94%

     MED3000                                                 MED3000        0.40%          0.13%–1.23%

     Medamation, LLC                                       Medamation       0.13%          0.02%–0.94%

     MedAptus, Inc.                                    MedAptus EMR         0.13%          0.02%–0.94%

     MedcomSoft                                   MedcomSoft Record         0.13%          0.02%–0.94%

     Medhost, Inc.                                             Medhost      0.27%          0.07%–1.05%

     Medical Informatics
                                                       Did Not Specify      0.13%          0.02%–0.94%
     Engineering
     Medical Information
                                                           MEDITECH         0.40%          0.13%–1.23%
     Technology, Inc.
     Medical Software
                                                             IMS EMR        0.66%          0.28%–1.59%
     Associates
                                    MedInformatix Enterprise Practice
     MedInformatix                                                          0.93%          0.44%–1.94%
                                                       Management

     MediSYS                                            MediSYS EHR         0.40%          0.13%–1.23%

     Meditab                                               IMS Clinical     0.13%          0.02%–0.94%

     meridianEMR, Inc.                                   meridianEMR        0.80%          0.36%–1.76%

     Microfour, Inc.                                    PracticeStudio      0.27%          0.07%–1.05%

     Navinet, Inc.                                        Navinet EMR       0.13%          0.02%–0.94%

     NexTech Systems, Inc.                                    NexTech       0.13%          0.02%–0.94%

     NextGen Healthcare                                       NextGen       8.24%         6.48%–10.43%

     Noteworthy Medical
                                                  NetPracticeEHRweb         0.13%          0.02%–0.94%
     Systems, Inc.

     OCERIS, Inc.                                          FlexMedical      0.13%          0.02%–0.94%

     Office Ally                                  Office Ally EHR 24/7      0.27%          0.07%–1.05%

     * Vendors use the terms EHR and EMR systems interchangeably.
                                                                                     continued on next page




Use of EHR Systems in 2011 Among Medicare Physicians Providing E/M Services                  OEI-04-10-00184
Page 17 – Farzad Mostashari, M.D., Sc.M.; Marilyn Tavenner


Appendix A


      Table A-3: Point Estimates and Confidence Intervals for Medicare Physicians Who Used
      an EHR System by Vendor * (n=752) (Continued)

                                                                               Point           95-Percent
      Vendor                                              EHR System
                                                                            Estimate   Confidence Interval


      Practice Fusion, Inc.                            Practice Fusion        1.73%          1.01%–2.95%

      Prime Clinical Systems                    Patient Chart Manager         0.40%          0.13%–1.23%

      ProMED Clinical Systems                                  ProMED         0.40%          0.13%–1.23%

      Propractica, Inc.                            StreamlineMD EMR           0.13%          0.02%–0.94%

      Pulse, Inc.                                           Pulse EHR         0.66%          0.28%–1.59%

      QuadraMed                                       QuadraMed EHR           0.13%          0.02%–0.94%

      Quest Diagnostics
                                                              Care 360        0.53%          0.20%–1.41%
      Incorporated

      Sage                                           Sage Intergy EHR         3.06%          2.04%–4.56%

      Siemans                                                INVISION         0.13%          0.02%–0.94%

      Siemans                                                  Soarian        0.27%          0.07%–1.05%

      SOAPware, Inc.                                        SOAPware          1.73%          1.01%–2.95%

      SRS Software, Inc.                          SRS Chart Manager           0.66%          0.28%–1.59%

      STI Computer Services,
                                                   ChartMaker Clinical        0.40%          0.13%–1.23%
      Inc.

      SuccessEHS                                          SuccessEHS          0.53%          0.20%–1.41%

      Treasure Coast
                                                    HealthMatics EHR          1.46%          0.81%–2.62%
      Management Group

      T-System, Inc.                                          T-System        0.13%          0.02%–0.94%

      U.S. Department of                 Computerized Patient Record
                                                                              0.13%          0.02%–0.94%
      Veterans Affairs                                        System

      Ulrich Medical Concepts                     Team Chart Concept          0.27%          0.07%–1.05%

      University of California Los
                                             UCLA Healthcare System
      Angeles Healthcare                                                      0.13%          0.02%–0.94%
                                                    Medical Record
      System

      Urgent Care Works                       Urgent Care Works EMR           0.13%          0.02%–0.94%

      Varian Medical Systems                                         ARIA     0.27%          0.07%–1.05%

      * Vendors use the terms EHR and EMR systems interchangeably.
                                                                                       continued on next page




Use of EHR Systems in 2011 Among Medicare Physicians Providing E/M Services                    OEI-04-10-00184
Page 18 – Farzad Mostashari, M.D., Sc.M.; Marilyn Tavenner


Appendix A


      Table A-3: Point Estimates and Confidence Intervals for Medicare Physicians Who
      Used an EHR System by Vendor * (n=752) (Continued)

                                                                        Point   95-Percent Confidence
      Vendor                                      EHR System
                                                                     Estimate                 Interval


      VersaForm Corporation                   VersaForm EHR            0.13%             0.02%–0.94%

      Visionary Medical
                                                      Dream EMR        0.27%             0.07%–1.05%
      Systems, Inc.
                                      Waiting Room Solutions
      Waiting Room Solutions                                           0.13%             0.02%–0.94%
                                                       EHR
      Wyoming Department of
                                           Total Health Record         0.13%             0.02%–0.94%
      Health

      Don’t Know                                      Don’t Know       0.27%             0.07%–1.05%

      Unknown                                           CarePlus       0.13%             0.02%–0.94%

      Unknown                                  digital medicine        0.13%             0.02%–0.94%

      Unknown                                           MD Logic       0.13%             0.02%–0.94%

      Unknown                                         Urgent Care      0.13%             0.02%–0.94%

      * Vendors use the terms EHR and EMR systems interchangeably.
     Source: OIG analysis of EHR survey data, 2012.




Use of EHR Systems in 2011 Among Medicare Physicians Providing E/M Services                OEI-04-10-00184
Page 19 – Farzad Mostashari, M.D., Sc.M.; Marilyn Tavenner


Appendix A


      Table A-4: Point Estimates and Confidence Intervals for Nine Vendors With Certified
      EHR Systems (n=752)

                                                            Point       95-Percent Confidence
      Vendor
                                                         Estimate                     Interval

      Allscripts                                          10.90%                8.87%–13.34%

      Cerner Corporation                                   3.99%                 2.80%–5.65%

      eClinicalWorks, LLC.                                 9.04%                7.19%–11.31%

      Epic Systems Corporation                             7.45%                 5.78%–9.55%

      GE Healthcare                                        8.64%                6.84%–10.87%

      Greenway Medical Technologies, Inc.                  5.19%                 3.81%–7.02%

      McKesson Corporation                                 3.72%                 2.58%–5.34%

      NextGen Healthcare                                   8.24%                6.48%–10.43%

      Sage                                                 3.06%                 2.04%–4.56%

    Source: OIG analysis of EHR survey data, 2012.




Use of EHR Systems in 2011 Among Medicare Physicians Providing E/M Services       OEI-04-10-00184
